No. 19-51

 

 

IN THE
Supreme Court of the United States

BEN BRANCH, WM. CURTIS CONNER,
DEBORAH CURRAN, AND ANDRE MELCUK,

Petitioners,
v.

DEPARTMENT OF LABOR RELATIONS,
COMMONWEALTH EMPLOYMENT RELATIONS BOARD AND
MASSACHUSETTS SOCIETY OF PROFESSORS/MTA/NEA,
HANOVER TEACHERS ASSOCIATION/MTA/NEA,
PROFESSIONAL STAFF UNION/MTA/NEA,

Respondents.

On Petition for Writ of Certiorari to the
Massachusetts Supreme Judicial Court

REPLY BRIEF

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

2,899 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 5, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
